No. 20-853
IN THE

Supreme Court of the United States

ANDREI IANCU, UNDER THE SECRETARY OF COMMERCE
FOR INTELLECTUAL PRPERTY AND DIRECTOR, UNITED STATES
PATENT AND TRADEMARK OFFICE,
Petitioner,
v.
FALL LINE PATENTS, LLC, et al.,
Respondents,
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT

JAMES GELSIN MARX CERTIFICATE OF SERVICE

Edward M. Cannon, Principal Counsel
Philip M. Nelson
KNOBBE, MARTENS, OLSON
& BEAR, LLP
2040 Main Street, 14th Floor
Irvine, CA 92614
(949) 760-0404
Attorneys for Respondent
James Gelsin Marx

March 22, 2021

-1I, Edward M. Cannon, counsel for James Gelsin Marx, hereby certify that on
March 22, 2021, I caused to the response in support of the petition for writ of
certiorari to be served by email on the following counsel:
Matthew James Antonelli
Antonelli, Harrington & Thompson, LLP
4306 Yoakum Boulevard, Suite 450
Houston, TX 77006
713-581-3000
matt@ahtlawfirm.com

James R. Barney
Finnegan, Henderson, Farabow,
Garrett & Dunner, LLP
901 New York Avenue NW
Washington, DC 20001
202-408-4412
james.barney@finnegan.com

Jeremy Seth Pitcock
The Pitcock Law Group
1501 Broadway
12th Floor
New York, NY 10036
646-571-2237
jpitcock@pitcocklawgroup.com

Matthew James Antonelli
Antonelli, Harrington & Thompson, LLP
4306 Yoakum Boulevard, Suite 450
Houston, TX 77006
713-581-3000
matt@ahtlawfirm.com

John C. O'Quinn
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
202-389-5000
john.oquinn@kirkland.com

Stephen Yee Chow
Hsuanyeh Law Group, PC
11 Beacon Street
Boston, MA 02108
617-886-9088
stephenychow@rcn.com

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

James Etheridge
Etheridge Law Group
2600 E Southlake Boulevard
Suite 120-324
Southlake, TX 76092
817-470-7249
Jim@EtheridgeLaw.com

Thomas Gregory Sprankling
Wilmer Cutler Pickering Hale
and Dorr LLP
2600 El Camino Real, Suite 400
Palo Alto, CA 94306
650-858-6000
Thomas.Sprankling@wilmerhale.com

Nicole A. Saharsky
Mayer Brow LLP
1999 K Street NW
Washington, DC 20006
202-263-3000
nsaharsky@mayerbrown.com

-2-

Respectfully submitted,
Edward M. Cannon, Principal Counsel
Philip M. Nelson
KNOBBE, MARTENS, OLSON & BEAR, LLP
2040 Main Street, 14th Floor
Irvine, CA 92614
(949) 760-0404
Attorneys for Respondent
James Gelsin Marx
34644914

